                        U.S. Department of Agriculture

                           Office of Inspector General
                            Financial & IT Operations




              Audit Report

Fiscal Year 2007 Federal Information Security
          Management Act Report




                              Report No. 50501-11-FM
                                     September 2007
                UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250




September 26, 2007



The Honorable Jim Nussle
Director
Office of Management and Budget
Eisenhower Executive Office Building
1650 Pennsylvania Avenue NW.
Washington, D.C. 20503

Subject: Fiscal Year 2007 Federal Information Security Management Act Report

Dear Director Nussle:

This report presents the results of our audits of the Department of Agriculture’s
(USDA) efforts to improve the management and security of its information technology
(IT) resources. USDA and its agencies have taken numerous actions to improve the
security over their IT resources; however, additional actions are still needed to establish
an effective security program.

Sincerely,


/s/

Phyllis K. Fong
Inspector General
Executive Summary
Fiscal Year 2007 Federal Information Security Management Act Report (Audit Report
No. 50501-11-FM)

Results in Brief    The efforts of the U.S. Department of Agriculture’s (USDA) Office of the
                    Chief Information Officer (OCIO) and the Office of Inspector General (OIG)
                    in the past several years have heightened program management’s awareness
                    of the need to plan and implement effective information technology (IT)
                    security. OCIO has improved its oversight in several areas during this fiscal
                    year. For example, the inventory of agency systems had significantly
                    improved. In other areas, such as the certification and accreditation (C&A)
                    process, improvements were noted, but additional work is still needed. The
                    Department has advanced in the past several years, but much more work is
                    needed to address the IT material control weaknesses that continue to impact
                    this large and complex organization.

                    The continuing material IT control weaknesses within the Department are
                    due to the lack of an effective overall Departmentwide plan. The Department
                    needs to coordinate with all of its agencies, determine the overall risks,
                    prioritize the risks, and develop and implement a time-phased plan to
                    systematically mitigate risks. With agency cooperation and acceptance
                    improvements could be made.

                    This report constitutes OIG’s independent evaluation of the Department’s IT
                    security program and practices as required by the Federal Information
                    Security Management Act (FISMA).

                    The following summarizes the key matters discussed in exhibit A of this
                    report, which contains OIG’s responses to questions required by Office of
                    Management and Budget (OMB) Memorandum No. M-07-19, FY 2007
                    Reporting Instructions for the Federal Information Security Management Act
                    and Agency Privacy Management, dated July 25, 2007.

                      •     Our review disclosed that agencies that had contractor systems
                            attached to their networks could not provide documentation to
                            validate that sufficient oversight and evaluation activities were in
                            place to ensure information systems used or operated by a contractor
                            of the agency, or other organization on behalf of the agency, met the
                            requirements of FISMA, OMB, and National Institute of Standards
                            and Technology (NIST) guidelines.

                      •     While OCIO made significant improvements in its oversight of the
                            Departmental inventory records, the process did not include tracking
                            system interfaces or contractor systems. In addition, guidance
USDA/OIG-A/50501-11-FM                                                                    Page i
                                          regarding contractor systems had not been developed and provided to
                                          agencies. A review of 14 system security plans revealed that 6
                                          systems interfaced with other systems; however, none of those
                                          interfaces appeared within the official Department inventory.
                                          System interfaces were not part of the OCIO semi-annual inventory
                                          reconciliation process, and therefore were not included in the
                                          Department’s oversight.        In addition, while the semi-annual
                                          inventory reconciliation did provide good oversight of overall
                                          systems, it did not differentiate between agency owned and
                                          contractor systems. As a result, at least one contractor system was
                                          not recorded in the official Department inventory.

                                   •      The Department made improvements in its plan of action and
                                          milestones (POA&M) recording, tracking, and closures. However,
                                          individual agencies are responsible to accurately input, track, and
                                          close POA&Ms. Our review disclosed that the agencies did not add
                                          POA&Ms based on the C&A testing and evaluation for 9 of the 10
                                          systems we reviewed. In addition, scanning vulnerabilities not
                                          mitigated within 30 days were not tracked by all six agencies we
                                          reviewed. In addition, we reviewed 19 closed POA&Ms during this
                                          review and found 5 were closed improperly and 3 had inadequate
                                          documentation that the weaknesses had been properly corrected
                                          and/or mitigated. Based upon our work during the fiscal year, we
                                          have no assurance that agencies were entering, tracking, and
                                          adequately closing POA&Ms.

                                   •      Our review of the Automated Security Self-Evaluation and
                                          Remediation Tracking (ASSERT) tool disclosed 10 systems that did
                                          not apply the appropriate risk levels to their systems in accordance
                                          with Federal guidelines. 1 For instance, one system had two high risk
                                          security objectives, yet the system was categorized as moderate.
                                          According to Federal guidelines, any security objective that is high
                                          defines the system categorization as high. This occurred because
                                          Department did not always provide adequate oversight of system
                                          categorization. Without a proper risk level assignment, the agencies
                                          cannot design their security programs to ensure the appropriate
                                          security controls are in place to protect the confidentiality, integrity,
                                          and availability of their systems.

                                   •      We noted that the C&A process within the Department was not
                                          adequate. Our detailed review of 10 C&As showed agencies had not
                                          followed NIST guidance. 2 Specifically, we found (1) nine security
                                          plans, seven risk assessments, and nine disaster recovery plans that

1
  Federal Information Processing Standards (FIPS) 199, Standards for Security Categorization of Federal Information and Information
Systems, dated December 2003.
2
  NIST Special Publication 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, dated May
2004.
USDA/OIG-A/50501-11-FM                                                                                                    Page ii
                                           did not follow NIST guidance, and did not provide complete,
                                           accurate, and consistent information; (2) for three systems the
                                           independent testing and evaluation processes did not provide
                                           adequate assurances that controls were in place and operating
                                           effectively; (3) in nine of the systems controls chosen for continuous
                                           monitoring had not been documented; and (4) eight systems were
                                           accredited in spite of serious weaknesses.

                                    •      The Department had implemented a concurrency review (quality
                                           assurance program) of agency C&A submissions prior to
                                           accreditation. Based on our review, the concurrency reviews were
                                           not providing adequate oversight to ensure that agency system
                                           documentation met NIST guidance and that agency controls were
                                           properly safeguarding agency systems and data. We found that the
                                           concurrency reviews were not denying authority to operate to
                                           systems that did not have controls in place to protect the system,
                                           performing followup to ensure weaknesses identified during the
                                           reviews were mitigated, and/or accurately reviewing agency C&A
                                           documentation.

                                    •      Privacy Act implementation within the Department continued to be
                                           inadequate. We found that in our review of 89 systems, 18 Privacy
                                           Impact Assessments (PIA) had not been completed and 8 more were
                                           still in draft. Of the 71 PIAs provided and reviewed, 36 did not meet
                                           Departmental 3 standards. In addition, the content of the PIAs was
                                           not always clear and/or information was contradictory regarding the
                                           usage of personally identifiable information (PII) on those systems.
                                           If PII information is in the system, a Statement of Record Notice
                                           (SORN) is required to be published in the Federal Register for any
                                           new or intended use of personal information. We found that 11 of 38
                                           required SORNs had not been published. Finally, of eight Privacy
                                           Act Officers interviewed, none were aware of key requirements such
                                           as formulating policy, handling privacy incidents, or analyzing
                                           business flows for privacy implications.

                                    •      The Department had taken some steps to implement the provisions of
                                           OMB Memorandum No. M-06-15, but had yet to fully achieve that
                                           goal. 4 One positive step was the recent granting of a blanket
                                           purchase agreement to encrypt mobile devices with a planned
                                           completion date of March 31, 2008. Until this is fully implemented,
                                           the Department is very susceptible to PII incidents as noted by the 50
                                           incidents that occurred this fiscal year. In addition, some legacy
                                           systems within the Department use the social security number as a
                                           piece of identifying information. Also, we found that there were at

3
    Departmental Manual (DM) 3515-002, Privacy Impact Assessment, dated February 17, 2005.
4
    OMB Memorandum No. M-06-15, Safeguarding Personally Identifiable Information, dated May 22, 2006.
USDA/OIG-A/50501-11-FM                                                                                   Page iii
                                           least 181 unencrypted wireless access points (AP) at selected
                                           locations within the Department which could potentially broadcast
                                           PII in clear text. 5

                                    •      An adequate Departmental configuration policy did not exist with
                                           checklists for each operating system. To determine the level of
                                           security and configurations within the Department, we scanned six
                                           agencies’ networks using commercially available software to look for
                                           known security vulnerabilities. In addition, we reviewed the level of
                                           security software patches that were applied at seven agencies. We
                                           found that (1) over 700 high risk vulnerabilities were present and
                                           unmitigated or the acceptance of risk was not documented, and (2)
                                           over 240,000 patches were not applied to over 26,000 devices. 6 We
                                           also reviewed the running configurations of network routers,
                                           switches, and firewalls at six agencies using commercially available
                                           software. We noted over 900 configuration errors within those
                                           agencies’ devices. In addition, we noted that some of these agencies
                                           had stated in their July 2007 scorecard that they were 100 percent
                                           patched and scanned. Agencies were not reporting their accurate
                                           security posture in the scorecards and OCIO was not validating the
                                           information when received.

                                    •      NIST guidance states that “while the solutions to IT security are
                                           complex, one basic yet effective tool is the security configuration
                                           checklist.” 7 The Department had issued guidance to achieve this
                                           NIST requirement by issuing checklists for some operating systems. 8
                                           We reviewed six agencies to determine whether the Department’s
                                           standard checklists for configuring systems were being used. We
                                           found checklists were not being used to configure the systems in four
                                           of six agencies and they could not provide documentation to support
                                           why the checklists were not used. In addition, checklists were not
                                           available to the agencies until August 2007 because they had been
                                           removed from the website and OCIO could not locate them.
                                           Fortunately, OIG was able to provide copies from our previous audit
                                           work. Also, as noted in the fiscal year 2006 FISMA audit report, not
                                           all checklists had been created. As a result, USDA systems were
                                           vulnerable to many threats, ranging from remotely launched network
                                           service exploits to malicious code spread through e-mails, malicious
                                           web sites, and file downloads.



5
  In computer networking, a wireless AP is a device that connects wireless communication devices together to form a wireless network.
The AP usually connects to a wired network and can relay data between wireless devices and wired devices. APs had Internet Protocol
(IP) addresses for configuration.
6
  High risk vulnerabilities are those which provide access to the computer, and possibly the network of computers.
7
  NIST Special Publication 800-70, Security Configuration Checklists Program for IT Products – Guidance for Checklists Users and
Developers, dated December 2006.
8
  DM 3540-002, Risk Assessment and Security Checklists, dated April 19, 2004.
USDA/OIG-A/50501-11-FM                                                                                                     Page iv
                                  •      OCIO made progress in tracking incident responses. During the
                                         fiscal year it implemented the Cyber Security Incident Response
                                         Management database to facilitate tracking and closeout of incidents.
                                         The database tracks the ticket number, open and close dates,
                                         categories of incidents, PII information, and whether the incident was
                                         forwarded to other Federal agencies. However, we found policies
                                         and procedures for incident handling were not being followed and
                                         that incidents were not closed properly or timely, or were not
                                         reported to necessary authorities. As a result, OCIO had limited
                                         assurance that incidents were being appropriately and timely reported
                                         and that security problems were being adequately addressed. We
                                         reviewed the incident tracking database and found 92 of the 399
                                         incidents did not have documented closure within 30 days and that
                                         75 incidents did not have United States Computer Emergency
                                         Readiness Team (US-CERT) numbers (agency officials stated that
                                         these were mainly false positives). 9 However, our review found that
                                         they should have been reported based on the US-CERT category in
                                         the database. In addition, we found over 100 incidents that had not
                                         been reported to OIG because OCIO did not have a standard
                                         distribution list.

                                  •      The Internet Protocol Address Database (IPAD) is vital to the
                                         timeliness of incident response. IPAD is the Department’s internet
                                         protocol (IP) address repository. This tool is used to determine the
                                         agency and location of the device when an incident occurs. It
                                         includes agency contact information, and whether PII is present on
                                         that system.      Although OCIO had made progress in the
                                         implementation of the IPAD, more work is needed. We found that
                                         IPAD still did not have a complete and accurate listing of USDA IP
                                         addresses in the Department’s tracking database for three out of the
                                         six agencies reviewed. This was due to a lack of management
                                         commitment to monitor IPAD to ensure that a complete and accurate
                                         inventory of IP addresses was maintained.

                                  •      We reviewed e-authentication risk assessments, required by OMB, at
                                         six agencies. 10    We found one agency that did not use e-
                                         authentication. Of the remaining five, only one could provide
                                         documentation to show it had conducted an assessment. The
                                         agencies were either unaware that a separate risk assessment was
                                         required or were not aware of a requirement to keep the
                                         documentation.      Without doing and/or documenting a risk
                                         assessment for e-authentication there is no assurance that business
                                         transactions have the required level of verification for authentication.


9
   US-CERT is required to be notified for certain incidents by DM 3505-000, USDA Computer Incident Response Procedures Manual,
dated March 20, 2006.
10
   OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies, dated December 16, 2003.
USDA/OIG-A/50501-11-FM                                                                                               Page v
                           Authentication risks with potentially higher consequences require
                           higher levels of assurance.

Recommendation
In Brief           This report presents the results of our audit work in assessing the security
                   over the Department’s IT resources. The recommendations made to correct
                   the deficiencies identified in this report have been documented in other
                   reports and we are not making additional recommendations.




USDA/OIG-A/50501-11-FM                                                                 Page vi
Abbreviations Used in This Report


AP                access point
APHIS             Animal and Plant Health Inspection Service
C&A               certification and accreditation
CCC               Commodity Credit Corporation
CIO               Chief Information Officer
DA                Departmental Administration
DM                Departmental Manual
FAS               Foreign Agricultural Service
FIPS              Federal Information Processing Standards
FISMA             Federal Information Security Management Act
FNS               Food and Nutrition Service
FS                Forest Service
FSA               Farm Service Agency
FSIS              Food Safety and Inspection Service
GAO               Government Accountability Office
GISRA             Government Information Security Reform Act
IG                Inspector General
IP                internet protocol
IPAD              Internet Protocol Address Database
IT                information technology
ITS               Information Technology Services
NFC               National Finance Center
NIST              National Institute of Standards and Technology
NITC              National Information Technology Center
NRCS              Natural Resources Conservation Service
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OMB               Office of Management and Budget
OIG               Office of Inspector General
POA&M             plan of action and milestones
PIA               Privacy Impact Assessment
PII               personally identifiable information
RMA               Risk Management Agency
SORN              Statement of Record Notice
SP                Special Publication
US-CERT           United States Computer Emergency Readiness Team
USDA              U.S. Department of Agriculture




USDA/OIG-A/50501-11-FM                                              Page vii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .....................................................................................................vii

Background and Objectives ................................................................................................................... 1

Scope and Methodology.......................................................................................................................... 4

Exhibit A – OMB Reporting Requirements and USDA OIG Position .............................................. 6




USDA/OIG-A/50501-11-FM                                                                                                                 Page viii
Background and Objectives
Background         Improving the overall management and security of information technology
                   (IT) resources is a top priority in the U.S. Department of Agriculture
                   (USDA). As technology has enhanced the ability to share information
                   instantaneously among computers and networks, it also has made
                   organizations more vulnerable to unlawful and destructive penetration and
                   disruption. Insiders with malicious intent, recreational and institutional
                   hackers, and attacks by intelligence organizations of other countries are just a
                   few of the threats that pose a risk to the Department’s critical systems and
                   data.

                   On December 17, 2002, the President signed into law the E-Government Act
                   (Public Law 107-347), which includes Title III, the Federal Information
                   Security Management Act (FISMA). FISMA permanently reauthorized the
                   framework established in the Government Information Security Reform Act
                   (GISRA) of 2000, which expired in November 2002. FISMA continues the
                   annual review and reporting requirements introduced in GISRA. In addition,
                   FISMA includes new provisions aimed at further strengthening the security
                   of the Federal Government’s information and information systems, such as
                   the development of minimum standards for agency systems. The National
                   Institute of Standards and Technology (NIST) has been tasked to work with
                   agencies in the development of those standards per its statutory role in
                   providing technical guidance to Federal agencies.

                   FISMA supplements information security requirements established in the
                   Computer Security Act of 1987, the Paperwork Reduction Act of 1995, and
                   the Clinger-Cohen Act of 1996, and is consistent with existing information
                   security guidance issued by the Office of Management and Budget (OMB)
                   and NIST. Most importantly, however, the provisions consolidate these
                   separate requirements and guidance into an overall framework for managing
                   information security and establishing new annual reviews, independent
                   evaluation, and reporting requirements to help ensure agency implementation
                   of the Act and both OMB and congressional oversight.

                   FISMA assigns specific responsibilities to OMB, agency heads, Chief
                   Information Officers (CIO), and Inspectors General (IG).            OMB is
                   responsible for establishing and overseeing policies, standards, and
                   guidelines for information security. This includes the authority to approve
                   agency information security programs. OMB is also required to submit an
                   annual report to Congress summarizing the results of agencies’ evaluations of
                   their information security programs.



USDA/OIG-A/50501-11-FM                                                                      Page 1
                   Each agency must establish an agency-wide risk-based information security
                   program to be overseen by the agency CIO and ensure that information
                   security is practiced throughout the lifecycle of each agency system.
                   Specifically, this program must include:

                         •   periodic risk assessments that consider internal and external threats
                             to the integrity, confidentiality, and availability of systems, and to
                             data supporting critical operations and assets;

                         •   development and implementation of risk-based, cost-effective
                             policies and procedures to provide security protections for
                             information collected or maintained by or for the agency;

                         •   training on security responsibilities for information security
                             personnel and on security awareness for agency personnel;

                         •   periodic management testing and evaluation of the effectiveness of
                             policies, procedures, controls, and techniques;

                         •   a process for      identifying   and   remediating   any   significant
                             deficiencies;

                         •   procedures for detecting, reporting, and responding to security
                             incidents; and

                         •   an annual program review by agency program officials.

                   In addition to the responsibilities listed above, FISMA requires each agency
                   to have an annual independent evaluation of its information security program
                   and practices, including control testing and compliance assessment. The
                   evaluations are to be performed by the agency IG or an independent
                   evaluator, and the results of these evaluations are to be reported to OMB.

Objectives         The audit objective was to form a basis for conclusion regarding the status of
                   USDA’s overall IT security program by:

                         •   evaluating the effectiveness of the Office of the Chief Information
                             Officer’s (OCIO) oversight role of agency CIOs and FISMA
                             compliance;

                         •   determining whether agencies have maintained an adequate system
                             of internal controls over IT assets in accordance with FISMA and
                             other appropriate laws and regulations;



USDA/OIG-A/50501-11-FM                                                                      Page 2
                         •   evaluating OCIO’s progress in establishing a Departmentwide
                             security program;

                         •   evaluating the agencies’ and OCIO’s plan of action and milestones
                             consolidation and reporting processes;

                         •   reviewing Privacy Act implementation and oversight; and

                         •   reviewing the adequacy of e-authentication risk assessments.




USDA/OIG-A/50501-11-FM                                                                      Page 3
Scope and Methodology
                             The scope of our review was Departmentwide and agency audits relating to IT
                             completed during fiscal year 2007. We conducted this performance audit in
                             accordance with generally accepted Government Auditing Standards. Those
                             standards require that we plan and perform the audit to obtain sufficient,
                             appropriate evidence to provide a reasonable basis for our findings and
                             conclusions based on our audit objectives. We believe that the evidence obtained
                             provides a reasonable basis for our findings and conclusions based on our audit
                             objectives.

                             Fieldwork for this audit was performed at the Department OCIO from June
                             through September 2007. In addition, the results of IT control testing and
                             compliance with laws and regulations performed by contract auditors at three
                             additional agencies are included in this report. Further, the results of our most
                             recent general control and application control reviews were considered and
                             incorporated into this report. In total, our fiscal year 2007 audit work covered
                             12 agencies and/or staff offices: Animal and Plant Health Inspection Service
                             (APHIS), Agricultural Marketing Service (AMS), Agricultural Research Service
                             (ARS), Food and Nutrition and Service (FNS), Food Safety and Inspection
                             Service (FSIS), Foreign Agricultural Service (FAS), Forest Service (FS), Farm
                             Service Agency (FSA), Natural Resources Conservation Service (NRCS), Office
                             of the Chief Financial Officer (OCFO), OCIO, and Risk Management Agency.
                             These agencies and staff offices operate approximately 216 of the OCIO
                             estimated 259 general support and major application systems within the
                             Department. 11

                             To accomplish our audit objectives, we performed the following procedures at
                             Headquarters and selected field offices.

                                  •    Consolidated the results and issues from our prior IT security audit work.
                                       Our audit work consisted primarily of audit procedures found in the U.S.
                                       Government Accountability Office (GAO) Financial Information System
                                       Control Audit Manual.

                                  •    Evaluated OCIO’s progress in implementing recommendations to correct
                                       material weaknesses identified in prior Office of Inspector General
                                       (OIG) and GAO audit reports.

                                  •    Gathered the necessary information to address the specific reporting
                                       requirements outlined in OMB Memorandum No. M-07-19, dated July
                                       25, 2007.



11
  The Department identified 259 systems in its plan of action and milestones system as of August 6, 2007.
USDA/OIG-A/50501-11-FM                                                                                      Page 4
                                •   Performed detailed testing specific to FISMA requirements at selected
                                    agencies as detailed in this report. 12




12
     Those agencies were APHIS, ARS, AMS, FAS, FNS and NRCS.
USDA/OIG-A/50501-11-FM                                                                               Page 5
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                            Exhibit A – Page 1 of 16

Section C: Inspector General Questions

1. As required in FISMA, the IG shall evaluate a representative subset of systems used or
   operated by an agency or by a contractor of an agency or other organization on behalf of an
   agency.

   Agency systems shall include information systems used or operated by an agency.
   Contractor systems shall include information systems used or operated by a contractor of an
   agency or other organization on behalf of an agency. The total number of systems shall
   include both agency systems and contractor systems.

   Agencies are responsible for ensuring the security of information systems used by a
   contractor of their agency or other organization on behalf of their agency; therefore,
   self-reporting by contractors does not meet the requirements of law. Self-reporting by
   another Federal agency, for example, a Federal service provider, may be sufficient. Agencies
   and service providers have a shared responsibility for FISMA compliance.

   (See table on next page.)




USDA/OIG-A/50501-11-FM                                                                     Page 6
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                              Exhibit A – Page 2 of 16

2. For the Total Number of Systems reviewed by Component/Bureau and Federal Information
   Processing Standards (FIPS) Systems Impact Level in the table for Question 1, identify the
   number and percentage of systems which have a current certification and accreditation,
   security controls tested and reviewed within the past year, and a contingency plan tested in
   accordance with policy.

                                                   Question 1.                           Question 2. – Agency Reported
                                                                     1.c.                             2.b. 14           2.c. 15
                                                                Fiscal year                        Number of         Number of
                                                       1.b.         2007                       systems for which systems for which
                                                                                      13
                                                   Fiscal year Total Number       2.a           security controls contingency plans
                                         1.a.         2007      of Systems     Number of        have been tested have been tested
      Bureau Name
                     FIPS 199     Fiscal year 2007 Contractor (Agency and systems certified and evaluated in in accordance
           (OIG
                  System Impact Agency Systems. Systems. As Contractor       and accredited the past year. As        with policy.
        Reviewed)
                       Level        As of 8/6/07    of 8/6/07    systems)     As of 9/17/07        of 9/17/07       As of 8/24/07
                                                            #                      Percent of           Percent of       Percent of
                                  Total # # Rev. Total # Rev Total # # Rev Total # Total Total # Total Total # Total
                                      1        0     0      0     1        0  0          0%       0          0%    *N/R       *N/R
     1. FS                   High
                                     14        13    0      0    14       13  1          7%       0          0%    *N/R       *N/R
                        Moderate
                                      2        1     0      0     2        1  1        50%        0          0%    *N/R       *N/R
                             Low
                                     17        14    0      0    17       14  2        12%        0          0%    *N/R       *N/R
                  Sub-total
                                      4        3     0      0     4        3  4        100%       0          0%    *N/R       *N/R
     2. FSIS                 High
                                      8        7     0      0     8        7  8        100%       1         13%    *N/R       *N/R
                        Moderate
                                      1        1     0      0     1        1  1        100%       0          0%    *N/R       *N/R
                             Low
                                     13        11    0      0    13       11  13       100%       1          8%    *N/R       *N/R
                  Sub-total
                                      0        0     0      0     0        0 N/A        N/A      N/A        N/A    *N/R       *N/R
     3. RMA                  High
                                     17        3     0      0    17        3  1          6%       1          6%    *N/R       *N/R
                        Moderate
                                      1        0     0      0     1        0  0          0%       0          0%    *N/R       *N/R
                             Low
                                     18        3     0      0    18        3  1          6%       1          6%    *N/R       *N/R
                  Sub-total
                                      4        3     0      0     4        3  4        100%       3         75%    *N/R       *N/R
     4. OCFO-NFC             High
                                      9        2     0      0     9        2  6        67%        4         44%    *N/R       *N/R
                        Moderate
                                      0        0     0      0     0       0  N/A        N/A      N/A        N/A    *N/R       *N/R
                             Low
                                     13        5     0      0    13        5  10       77%        7         54%    *N/R       *N/R
                  Sub-total




13
   These numbers come from the OCIO as of September 17, 2007, and identified systems that had under gone a C&A. These do not
include systems with an Interim Authority to Operate or 86 systems scheduled to undergo a completed C&A by September 30, 2007. For
an assessment of the quality of the C&A process, see Question 5.
14
   OIG cannot determine an accurate number of systems that have self-assessments completed. We reviewed self-assessments done in six
agencies (APHIS, ARS, AMS, FAS, NRCS, and FNS) and found that all six could not provide documentation of testing on any controls
not undergoing the C&A process. Numbers, therefore, are those C&A’d in 2007.
15
   The numbers here are based solely on work performed by OIG for our six selected agencies. *N/R means we did not review that
agency.
USDA/OIG-A/50501-11-FM                                                                                                         Page 7
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                              Exhibit A – Page 3 of 16


                                               Question 1.                          Question 2. – Agency Reported
                                                                1.c.                             2.b. 17           2.c. 18
                                                           Fiscal year                        Number of         Number of
                                                  1.b.         2007                       systems for which systems for which
                                              Fiscal Year Total Number       2.a 16        security controls contingency plans
                                    1.a.         2007      of Systems     Number of        have been tested have been tested
 Bureau Name
                FIPS 199     Fiscal Year 2007 Contractor (Agency and systems certified and evaluated in in accordance
     (OIG
             System Impact Agency Systems. Systems. As Contractor       and accredited the past year. As        with policy.
   Reviewed)
                  Level        As of 8/6/07    of 8/6/07    systems)     As of 9/17/07        of 9/17/07       As of 8/24/07
                                                       #                      Percent of           Percent of       Percent of
                              Total # # Rev. Total # Rev Total # # Rev Total # Total Total # Total Total # Total
                                 6        3     0      0     6       3    1       17%        0          0%    *N/R       *N/R
5. OCIO                 High
                                14        1     0      0    14       1    7       50%        5         36%    *N/R       *N/R
                   Moderate
                                 7        2     0      0     7       2    2       29%        1         14%    *N/R       *N/R
                        Low
                                27        6     0      0    27       6   10       37%        6         22%    *N/R       *N/R
             Sub-total
                                 0        0     0      0     0       0  N/A        N/A      N/A        N/A    *N/R       *N/R
6. FSA                  High
                                22        2     0      0    22       2    6       27%        6         27%    *N/R       *N/R
                   Moderate
                                 3        0     0      0     3       0    0         0%       0          0%    *N/R       *N/R
                        Low
                                25        2     0      0    25       2    6       24%        6         24%    *N/R       *N/R
             Sub-total
7. AMS                     High   0       0       0      0     0      0     N/A     N/A      N/A      N/A     N/A      N/A

                     Moderate     3       3       0      0     3      3      3      100%      3      100%       0      0%

                           Low    16      16      0      0    16      16    16      100%      16     100%       0      0%

               Sub-total          19      19      0      0    19      19    19      100%      19     100%       0      0%

8.ARS                      High   0       0       0      0     0      0     N/A     N/A      N/A      N/A     N/A      N/A

                     Moderate     0       0       0      0     0      0     N/A     N/A      N/A      N/A     N/A      N/A

                           Low    15      15      0      0    15      15     8      53%       8      53%        0      0%

               Sub-total          15      15      0      0    15      15     8      53%       8      53%        0      0%

9.APHIS                    High   6       1       0      0     6      1      5      83%       0       0%        0      0%

                     Moderate     22      15      1      0    23      15    15      65%       2       9%        5      33%

                           Low    9       5       0      0     9      5      3      33%       0       0%        1      20%

               Sub-total          37      21      1      0    38      21    23      61%       2       5%        6      29%




16
   These numbers come from the OCIO as of September 17, 2007, and identified systems that had under gone a C&A. These do not
include systems with an Interim Authority to Operate or 86 systems scheduled to undergo a completed C&A by September 30, 2007. For
an assessment of the quality of the C&A process, see Question 5.
17
   OIG cannot determine an accurate number of systems that have self-assessments completed. We reviewed self-assessments done in six
agencies (APHIS, ARS, AMS, FAS, NRCS, and FNS) and found that all six could not provide documentation of testing on any controls
not undergoing the C&A process. Numbers, therefore, are those C&A’d in 2007.
18
   The numbers here are based solely on work performed by OIG for our six selected agencies. *N/R means we did not review that
agency.
USDA/OIG-A/50501-11-FM                                                                                                           Page 8
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                             Exhibit A – Page 4 of 16

                                             Question 1.                            Question 2. – Agency Reported
                                                                                                2.b. 20
                                                              1.c.                           Number of              2.c. 21
                                                          Fiscal Year                        systems for         Number of
                                               1.b.          2007                          which security    systems for which
                                           Fiscal Year Total Number        2.a 19           controls have    contingency plans
                                 1.a.          2007       of Systems    Number of          been tested and    have been tested
Bureau Name   FIPS 199    Fiscal Year 2007 Contractor    (Agency and systems certified    evaluated in the     in accordance
   (OIG     System Impact Agency Systems. Systems. As of Contractor   and accredited      past year. As of      with policy.
 Reviewed)       Level      As of 8/6/07      8/6/07       systems)    As of 9/17/07           9/17/07          As of 8/24/07
                                                     #                        Percent              Percent           Percent of
                           Total # # Rev. Total # Rev Total # # Rev Total # of Total      Total # of Total   Total # Total
10. FAS                   High    0     0        0         0   0      0    N/A     N/A     N/A     N/A        N/A      N/A
                                  3     3        0         0    3     3     0      0%       0       0%          3      100%
                      Moderate
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A        N/A      N/A
                          Low
                                  3     3        0         0    3     3     0      0%       0       0%          3      100%
              Sub-total
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A        N/A      N/A
11. FNS                   High
                                  7     2        4         1   11     3     11    100%      5      45%          1      33%
                      Moderate
                                  1     1        0         0    1     1     1     100%      0       0%          0       0%
                          Low
                                  8     3        4         1   12     4     12    100%      5      42%          1      25%
              Sub-total
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A        N/A      N/A
12. NRCS                  High
                                  3     3        0         0    3     3     3     100%      3      100%         3      100%
                      Moderate
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A        N/A      N/A
                          Low
                                  3     3        0         0    3     3     3     100%      3      100%         3      100%
              Sub-total
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A       *N/R      *N/R
13. OCFO-FS               High
                                 13     3        0         0   13     3     11     85%      11     85%       *N/R      *N/R
                      Moderate
                                  0     0        0         0   0      0    N/A     N/A     N/A     N/A       *N/R      *N/R
                          Low
                                 13     3        0         0   13     3     11     85%      11     85%       *N/R      *N/R
              Sub-total
Totals                    High   21     10       0         0   21    10     14     67%      3      14%

                      Moderate   135    57       5         1   140   58     72     51%      41     29%

                          Low    55     41       0         0   55    41     32     58%      25     45%

              Total              211   108       5         1   216   109   118     55%      69     32%




19
   These numbers come from the OCIO as of September 17, 2007, and identified systems that had under gone a C&A. These do not
include systems with an Interim Authority to Operate or 86 systems scheduled to undergo a completed C&A by September 30, 2007. For
an assessment of the quality of the C&A process, see Question 5.
20
   OIG cannot determine an accurate number of systems that have self-assessments completed. We reviewed self-assessments done in six
agencies (APHIS, ARS, AMS, FAS, NRCS, and FNS) and found that all six could not provide documentation of testing on any controls
not undergoing the C&A process. Numbers, therefore, are those C&A’d in 2007.
21
   The numbers here are based solely on work performed by OIG for our six selected agencies. *N/R means we did not review that
agency.
USDA/OIG-A/50501-11-FM                                                                                                            Page 9
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 5 of 16

3.   Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System
     Inventory

     a. The agency performs oversight and evaluation to ensure information systems used or
        operated by a contractor of the agency or other organization on behalf of the agency
        meet the requirements of FISMA, OMB policy and NIST guidelines, national security
        policy, and agency policy. (OIG’s Response is underlined below.)

        Agencies are responsible for ensuring the security of information systems used by a
        contractor of their agency or other organization on behalf of their agency; therefore,
        self reporting by contractors does not meet the requirements of law. Self-reporting by
        another Federal agency, for example, a Federal service provider may be sufficient.
        Agencies and service providers have a shared responsibility for FISMA compliance.

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

        Our review showed that agencies that had contractor systems attached to their networks
        could not provide documentation to validate that sufficient oversight and evaluation
        activities were in place to ensure information systems used or operated by a contractor of
        the agency, or other organization on behalf of the agency, met the requirements of FISMA,
        OMB, and NIST guidelines. This occurred because the Department did not have written
        policies or procedures in place to provide guidance to the agencies for oversight of
        contractor systems. In addition, the agencies had not developed written agency policies and
        procedures for contractor oversight and evaluation. Consequently, the Department cannot
        be assured of the security over contractor systems.

     b. The agency has developed complete inventory of major information systems
        (including major national security systems) operated by or under the control of such
        agency, including an identification of the interfaces between each such system and all
        other systems or networks, including those not operated by or under the control of the
        agency.

        Response Categories:

        •   The inventory is approximately 0-50 percent complete
        •   The inventory is approximately 51-70 percent complete
USDA/OIG-A/50501-11-FM                                                                       Page 10
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                          Exhibit A – Page 6 of 16


              •   The inventory is approximately 71-80 percent complete
              •   The inventory is approximately 81-95 percent complete
              •   The inventory is approximately 96-100 percent complete

              While OCIO made significant improvements in their oversight of the Departmental
              inventory records, the process did not include tracking system interfaces or contractor
              systems. In addition, guidance regarding contractor systems had not been developed and
              provided to agencies. A review of 14 system security plans revealed that 6 systems
              interfaced with other systems; however, none of those interfaces appeared within the
              official Department inventory. System interfaces were not part of the OCIO semi-annual
              inventory reconciliation process, and therefore were not included in the Department’s
              oversight. In addition, while the semi-annual inventory reconciliation did provide good
              oversight of overall systems, it did not differentiate between agency owned and contractor
              systems. As a result, at least one contractor system was not identified as belonging to a
              contractor in the official Department inventory. Another system was questioned by OIG as
              to whether it should be a contractor system, but because of the lack of a clear definition,
              neither the agency nor OIG could make that determination. We considered the system
              inventory to be accurate. However, we considered the interfaces to be only 25 percent
              accurate. Therefore, we are assigning inventory with an overall 75 percent completion
              percentage.

              Our review of the Automated Security Self-Evaluation and Remediation Tracking
              (ASSERT) tool disclosed 10 systems that did not apply the appropriate risk levels to their
              systems in accordance with Federal guidelines 22 . For instance, one system had two high
              risk security objectives, yet the system was categorized as moderate. According to Federal
              guidelines, any security objective that is high defines the system categorization as high.
              This occurred because Department did not always provide adequate oversight of system
              categorization. Without a proper risk level assignment, the agencies cannot design their
              security programs to ensure the appropriate security controls are in place to protect the
              confidentiality, integrity, and availability of their systems.

         c. The IG generally agrees with the CIO on the number of agency-owned systems. Yes or
            No.

              As noted in 3b above, OCIO had made significant improvements in its processes. OIG
              concurs with the number of systems in the Departmental inventory.




22
  Federal Information Processing Standards (FIPS) 199, Standards for Security Categorization of Federal Information and Information
Systems, dated December 2003.
USDA/OIG-A/50501-11-FM                                                                                                  Page 11
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                              Exhibit A – Page 7 of 16

     d. The OIG generally agrees with the CIO on the number of information systems used or
        operated by a contractor of the agency or other organization on behalf of the agency.
        Yes or No.

        As noted in 3b above, we found a missing contractor system and confusion within the
        Department as to an accurate definition of a contractor system. Therefore, we could not
        determine that an accurate inventory of contractor systems existed within the Department.

     e. The agency inventory is maintained and updated at least annually. Yes or No.

        As noted in 3b above, OCIO had made significant improvements in its processes. The
        Department had been doing a semi-annual review of inventory.

        f. If the agency IG does not evaluate the agency’s inventory as 96 percent-100
        percent complete, please identify the known missing systems by Component/Bureau,
        the Unique Project Identifier associated with the system as presented in your FY 2008
        Exhibit 53 (if known), and indicate if the system is an agency or contractor system.

        As noted above, OIG concurs with the total number of systems, but the tracking of
        interfaces within the inventory system was inadequate. The systems were accurately
        entered into the inventory system but we had no assurance that a complete listing of
        interfaces had been documented.

4.   Assess whether the agency has developed, implemented, and is managing an agency–wide
     plan of action and milestones (POA&M) process. Evaluate the degree to which each
     statement reflects the status in your agency by choosing from the responses provided. If
     appropriate or necessary, include comments in the area provided.

     For each statement in items 4a through 4f, select the response categories that best reflects
     the agency’s status. (OIG’s Response is underlined below.)

     a. The POA&M is an agency-wide process, incorporating all known IT security
        weaknesses associated with information systems used or operated by the agency or by
        a contractor of the agency or other organization on behalf of the agency.

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

USDA/OIG-A/50501-11-FM                                                                      Page 12
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                              Exhibit A – Page 8 of 16



        The Department had made improvements in this area. However, it is up to the agencies to
        accurately input, track, and close POA&Ms. During fiscal year 2007, OCIO began working
        with the Office of the Chief Financial Officer on a comprehensive process for POA&M
        closure. This effort concentrated mainly on financial systems within the Department. An
        essential driver for this process is that actions are undertaken to adequately close the
        POA&M. To achieve this goal, the Department initiated a Quality Assurance Working
        Group late in the fiscal year to provide independent verification and validation of
        documentation submitted to support agency requests to close IT security vulnerabilities.
        These new actions should improve the POA&M process.

        Although improvements have been made, it will take time for the processes to mitigate the
        issues OIG and the Department have found. OCIO issued a report on June 20, 2007, based
        on its review of the closure of POA&Ms by several agencies within the Department.
        Twenty-four POA&Ms were selected from a total of 461 closed from October 1, 2005, to
        September 30, 2006. OCIO found that the documentation lacked sufficient detail to show
        that the systemic cause of the POA&M weakness had been corrected. Further, agencies did
        not maintain support to show that an internal control was placed in operation to prevent
        recurrence of the weakness, or that the control was sufficiently tested for effectiveness
        before closing a POA&M.

        In addition, our reviews during fiscal year 2007 identified areas where POA&Ms were not
        being developed and entered into the tracking tool to report known IT security weaknesses.
        Details are shown below.

         •   POA&Ms were not added for weaknesses identified during security testing and
             evaluation performed on 9 of the 10 C&A packages we reviewed.

         •   All six agencies in our review had not created POA&Ms for identified scanning
             vulnerabilities that were open more than 30 days as required by Departmental
             guidance.

         •   Two agencies did not create POA&Ms as a result of weaknesses identified during
             OCIO security reviews.

        In addition, we reviewed 19 closed POA&Ms during this review and found 5 were closed
        improperly and 3 had inadequate documentation that the weaknesses had been properly
        corrected and/or mitigated. Based upon our work during the fiscal year, we have no
        assurance that agencies were entering, tracking, and adequately closing POA&Ms.




USDA/OIG-A/50501-11-FM                                                                      Page 13
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                              Exhibit A – Page 9 of 16

     b. When an IT security weakness is identified, program officials (including CIOs, if they
        own or operate a system) develop, implement, and manage POA&Ms for their
        system(s).

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

        See response to 4a above.

     c. Program officials and contractors report their progress on security weakness
        remediation to the CIO on a regular basis (at least quarterly).

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

     Although the agencies reported their progress on security weakness remediation on a monthly
     basis, as noted above in 4a, we can give no assurance that the reporting is accurate.

     d. Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a
        quarterly basis.

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time




USDA/OIG-A/50501-11-FM                                                                      Page 14
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 10 of 16

        As noted above, OCIO centrally maintains, tracks, and reviews POA&Ms on a monthly
        basis. In addition, OCIO reviews (on a monthly basis) the status of corrective actions on
        POA&Ms and any late completion dates are discussed with agency CIOs. However, based
        on our findings in 4a, we cannot assure that the reporting by the agencies to the Department
        is accurate. The Department has put significant effort into correcting these deficiencies.

     e. IG findings are incorporated into the POA&M process.

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

        OCIO made significant improvement determining whether POA&Ms for OIG findings
        were in the tracking system. Audit findings were tracked in the POA&Ms we reviewed.

     f. POA&M process prioritizes IT security weaknesses to help ensure significant IT
        security weaknesses are addressed in a timely manner and receive appropriate
        resources.

        Response Categories:

        •   Rarely, for example, approximately 0-50 percent of the time
        •   Sometimes, for example, approximately 51-70 percent of the time
        •   Frequently, for example, approximately 71-80 percent of the time
        •   Mostly, for example, approximately 81-95 percent of the time
        •   Almost Always, for example, approximately 96-100 percent of the time

        As noted in 4a above, OCIO had made progress with regard to financial systems within the
        Department. However, the POA&M tracking system does not have the capability to
        prioritize IT weaknesses.

5.   Provide a qualitative assessment of the agency’s certification and accreditation process,
     including adherence to existing policy, guidance, and standards. Provide narrative
     comments as appropriate. (OIG’s Response is underlined below.)

     Agencies shall follow NIST Special Publication (SP) 800-37, Guide for the Security
     Certification and Accreditation of Federal Information Systems, dated May 2004, for

USDA/OIG-A/50501-11-FM                                                                        Page 15
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                             Exhibit A – Page 11 of 16

            certification and accreditation work initiated after May 2004. This includes use of the
            FIPS 199, Standards for Security Categorization of Federal Information and Information
            Systems, dated February 2004, to determine a system impact level, as well as associated
            NIST documents used as guidance for completing risk assessments and security plans.

            a. The IG rates the overall quality of the Agency’s certification and accreditation
               process.

                 Response Categories:

                 -Excellent
                 -Good
                 -Satisfactory
                 -Poor
                 -Failing

            b. The IG quality rating included or considered the following aspects of the C&A
               process.

                 (Check all that apply.)

                   Security plan                                                                                         X
                   System impact level                                                                                   X
                   System test and evaluation                                                                            X
                   Security control testing                                                                              X
                   Incident handling                                                                                     X
                   Security awareness training                                                                           X
                   Configurations/patching                                                                               X
                   Other: Contingency/Disaster Recovery/Risk Assessments                                                 X

                 C&A process comments:

                 The Department made improvements in the C&A process. We reviewed 10 C&As and
                 found 1 that met NIST guidance. 23 In addition, we found an improved independent testing
                 and evaluation process. Although improvements were made, we found that the process was
                 still not adequate. Our review of the other nine C&As showed that agencies had not
                 followed NIST guidance. Specifically, we found (1) nine security plans, seven risk
                 assessments, and nine disaster recovery plans that did not follow NIST guidance, and did
                 not provide complete, accurate, and consistent information; (2) three C&As where the
                 processes did not provide adequate assurances that controls were in place and operating

23
     NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, dated May 2004.
USDA/OIG-A/50501-11-FM                                                                                                        Page 16
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                              Exhibit A – Page 12 of 16

        effectively; (3) nine systems where controls chosen for continuous monitoring were not
        documented; and (4) eight systems that were accredited in spite of serious weaknesses.
        This was caused by a general lack of agency oversight and commitment to security. As a
        result, not all system controls may have been documented and tested, and systems may be
        at risk if controls were not implemented effectively.

        Also, the Department had implemented a quality assurance program known as a
        concurrency review to assess agency C&A submissions, prior to accreditation. But based
        on our review, OCIO concurrency reviews were not providing adequate oversight to ensure
        that agency system documentation met NIST guidance and that controls were properly
        safeguarding agency systems and data. We found concurrency reviews were not adequately
        reviewing agency C&A documentation, denying authority to operate for systems that did
        not have controls in place to protect the system, and/or performing followup to ensure
        weaknesses identified during the reviews were mitigated. OCIO stated that it did not have
        adequate resources to perform concurrency reviews on a large number of Departmental
        systems in a small amount of time. In addition, concurrency review procedures were in
        draft. As a result, USDA can not be assured that all system controls have been documented
        and tested, and systems are operating at an acceptable level of risk if controls were not
        implemented effectively.

6.   IG Assessment of Agency Privacy Program and Privacy Impact Assessment Process

     a. Provide a qualitative assessment of the agency’s Privacy Impact Assessment (PIA)
        process, as discussed in Section D II.4, including adherence to existing policy,
        guidance, and standards. (OIG’s Response is underlined below.)

        Response Categories:

        -Excellent
        -Good
        -Satisfactory
        -Poor
        -Failing

        Comments:

        During fiscal year 2007, OCIO conducted a review of agency Privacy Act documentation.
        Its review noted that of 215 PIAs, only 98 followed the correct format and provided
        adequate responses. Of the remaining PIAs, 78 needed corrections and/or additions and 43
        did not follow the correct format. In addition, of the 215 PIAs reviewed, 40 systems that
        indicated personally identifiable information (PII) was present did not have a reference to
        and/or a published Statement of Record Notice (SORN), as required.

USDA/OIG-A/50501-11-FM                                                                       Page 17
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                          Exhibit A – Page 13 of 16

              We also reviewed the Privacy Act implementation within the Department and came to a
              similar conclusion. The Department required a PIA for all systems. We found that in our
              review of 89 systems, 18 PIAs had not been completed and 8 more were still in draft. Of
              the 71 PIAs provided and reviewed, 36 did not meet Departmental standards by failing to
              include required questions. 24 In addition, the content of the PIAs were not always clear
              and/or information was contradictory regarding the usage of PII in those systems. If PII
              information is in the system, a SORN was to be published in the Federal Register for any
              new or intended use of personal information.                    We found that 11 of
              38 required SORNs had not been published. Finally, of 8 Privacy Act Officers interviewed,
              none were aware of key requirements such as formulating policy, handling privacy
              incidents, and/or analyzing business flows for privacy implications.

         b. Provide a qualitative assessment of the agency’s progress to date in implementing the
            provisions of M-06-15, Safeguarding Personally Identifiable information, since the most
            recent self-review, including the agency’s policies and processes, and the
            administrative, technical, and physical means used to control and protect PII.

              Response Categories:

              -Excellent
              -Good
              -Satisfactory
              -Poor
              -Failing

              Comments:

              The Department had taken some steps to implement the provisions of OMB Memorandum
              No. M-06-15, but had yet to fully achieve that goal. One positive step taken was the recent
              granting of a blanket purchase agreement to encrypt mobile devices with a planned
              completion date of March 31, 2008. Until this is fully implemented, the Department is very
              susceptible to PII incidents as noted by the 50 such incidents which occurred during the
              fiscal year. In addition, some legacy systems within the Department use the social security
              number as the key component. We also found that there were at least 181 unencrypted
              wireless access points within the Department, which could potentially broadcast PII in clear
              text. 25



24
  Departmental Manual (DM) 3515-002, Privacy Impact Assessment, dated February 17, 2005.
25
  In computer networking, a wireless AP is a device that connects wireless communication devices together to form a wireless network.
The AP usually connects to a wired network, and can relay data between wireless devices and wired devices. APs had Internet Protocol
addresses for configuration.
USDA/OIG-A/50501-11-FM                                                                                                    Page 18
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                       Exhibit A – Page 14 of 16

7.       Configuration Management

         a. Is there an agency-wide security configuration policy? Yes or No.

              Comments:

              An adequate Departmental configuration policy did not exist with checklists for each
              operating system. To determine the level of security and configurations within the
              Department, we scanned six agencies’ networks using commercially available software to
              look for known security vulnerabilities. In addition, we reviewed the level of security
              software patches that were applied at seven agencies. We found that (1) over 700 high risk
              vulnerabilities 26 were present and unmitigated or the acceptance of risk was not
              documented, and (2) over 240,000 patches were not applied to over 26,000 devices. We
              also reviewed the running configurations of network routers, switches and firewalls at six
              agencies using commercially available software. Our review disclosed over 900
              configuration errors within those agencies’ devices. In addition, we noted that some of
              these agencies had stated in their July 2007 scorecard that they were 100 percent patched
              and scanned. Agencies were not reporting their accurate security posture in the scorecards
              and OCIO was not validating the information when received.

         b. Approximate the extent to which applicable information systems apply common
            security configurations established by NIST.

              Response Categories:

              •   Rarely, for example, approximately 0-50 percent of the time
              •   Sometimes, for example, approximately 51-70 percent of the time
              •   Frequently, for example, approximately 71-80 percent of the time
              •   Mostly, for example, approximately 81-95 percent of the time
              •   Almost Always, for example, approximately 96-100 percent of the time

              NIST guidance states that “while the solutions to IT security are complex, one basic yet
              effective tool is the security configuration checklist.” 27 The Department had issued
              guidance to achieve this NIST requirement. 28 It issued checklists for some operating
              systems which it required agencies to use on a yearly basis. We reviewed six agencies to
              determine whether the Department’s standard checklist for configuring systems were being
              used. We found that checklists were not being used to configure the systems in four of six


26
   High risk vulnerabilities are those which provide access to the computer, and possibly the network of computers.
27
   NIST SP 800-70, Security Configuration Checklists Program for IT Products – Guidance for Checklists Users and Developers, dated
December 2006.
28
   DM 3540-002, Risk Assessment and Security Checklists, dated April 19, 2004.
USDA/OIG-A/50501-11-FM                                                                                                 Page 19
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                      Exhibit A – Page 15 of 16

                agencies and they could not provide documentation to support why the checklists were not
                used. In addition, checklists were not available to the agencies until August 2007 because
                they had been removed from the website and OCIO could not locate them. Fortunately,
                OIG was able to provide copies from our previous audit work. Also, as noted in the fiscal
                year 2006 FISMA audit report, not all checklists had been created. As a result, USDA
                systems were vulnerable to many threats, ranging from remotely launched network service
                exploits to malicious code spread through e-mails, malicious web sites, and file downloads.

8.          Indicate whether or not the agency follows documented policies and procedures for
            reporting incidents internally, to United States Computer Emergency Readiness Team
            (US-CERT), and to law enforcement. If appropriate or necessary, include comments in
            the area provided below.

            a. The agency follows documented policies and procedures for identifying and reporting
               incidents internally. Yes or No.

            b. The agency follows documented policies and procedures for external reporting to US-
               CERT. Yes or No. (http://www.us-cert.gov)

            c. The agency follows documented policies and procedures for reporting to law
               enforcement. Yes or No.

                Comments:

                OCIO made progress in tracking incident responses. During the fiscal year it implemented
                the Cyber Security Incident Response Management database to facilitate tracking and
                closeout of incidents. The database tracks the ticket number, open and close dates,
                categories of incidents, PII information, and whether the incident was forwarded to other
                Federal agencies. However, we found policies and procedures for incident handling were
                not being followed and that incidents were not closed properly, timely, or reported to
                necessary authorities. As a result, OCIO had limited assurance that improper actions were
                being appropriately and timely handled and that security problems were being adequately
                addressed. We reviewed the incident tracking database and found 92 of the 399 incidents
                did not have documented closure within 30 days and that 75 incidents did not have US-
                CERT numbers (agency officials stated that these were mainly false positives). However,
                our review found that they should have been reported based on the US-CERT category in
                the database. In addition, we found over 100 incidents that had not been reported to OIG,
                as required by Departmental guidance, because OCIO did not have a standard distribution
                list. 29



29
     DM 3505-001, Incident Response Procedures, dated March 20, 2006.
USDA/OIG-A/50501-11-FM                                                                               Page 20
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                      Exhibit A – Page 16 of 16

                Internet Protocol Address Database (IPAD) is vital to the timeliness of incident response.
                IPAD is the Department’s internet protocol (IP) address repository. This tool is used to
                determine the agency and location of the device when an incident occurs. It includes
                agency contact information, and whether PII is present on that system. Although the OCIO
                had made progress in the implementation of IPAD, more work is needed. We found that
                IPAD still did not have a complete and accurate listing of USDA IP addresses in the
                Department’s tracking database for three out of the six agencies reviewed. This was due to
                a lack of management commitment to monitor IPAD to ensure that a complete and accurate
                inventory of IP addresses was maintained.

9.         Has the agency ensured security awareness training of all employees, including
           contractors and those employees with significant IT security responsibilities?
           Response Categories:

           •    Rarely, or, approximately 0-50 percent of employees
           •    Sometimes, or approximately 51-70 percent of employees
           •    Frequently, or approximately 71-80 percent of employees
           •    Mostly, or approximately 81-95 percent of employees
           •    Almost Always, or approximately 96-100 percent of employees

10.        Does the agency explain policies regarding peer-to-peer file sharing in IT security
           awareness training, ethics training, or any other agency-wide training? Yes or No.

11.        The agency has completed system e-authentication risk assessments. Yes or No.

           We reviewed e-authentication risk assessments, required by OMB, at six agencies. 30 We found
           one agency that did not use e-authentication. For the remaining, only one could provide
           documentation to show it had conducted an assessment. The agencies were either unaware that
           a separate risk assessment was required or were not aware of a requirement to keep the
           documentation. Without doing and/or documenting a risk assessment for e-authentication there
           is no assurance that business transactions have the required level of verification for
           authentication. Authentication risks with potentially higher consequences require higher levels
           of assurance.




30
     OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies, dated December 16, 2003.
USDA/OIG-A/50501-11-FM                                                                                               Page 21
